                             AUDIT REPORT                                  IG-03-020



Report Recipient:
AO/Chief Information
  Officer                        OPPORTUNITIES FOR COST SAVINGS
                                  IN PURCHASING PERIPHERAL AND
                               ACCESSORY EQUIPMENT AND SUPPLIES
                                FOR DESKTOP COMPUTING SERVICES

                                                    July 18, 2003


  cc:
  AO/Audit Liaison
    Representative
  GSFC/294/Head,
    Customer Interface
    Branch




                             OFFICE OF INSPECTOR GENERAL
                             Released by: __[original signed by] __________
  National Aeronautics and
  Space Administration       David M. Cushing, Assistant Inspector General for Auditing
IG-03-020                                                               July 18, 2003
 A-02-003-00

Opportunities for Cost Savings in Purchasing Peripheral and Accessory
     Equipment and Supplies for Desktop Computing Services

The master Outsourcing Desktop Initiative for NASA (ODIN) contract requires the
ODIN contractor at each NASA installation to offer optional computer products (that is,
peripheral equipment, accessories, and supplies) to augment the ODIN desktop seats.
NASA users may order the optional products through an on-line catalog maintained by
the ODIN contractor at each installation. In 2002, for example, NASA purchased
$13.9 million in computer products from ODIN catalogs. Our objective was to determine
whether NASA can achieve cost savings when purchasing computer products for use
with ODIN desktop seats. Details regarding the audit objectives, background, scope, and
methodology are in Appendix B.


Results of Audit. We identified the following three issues that may affect the cost-
effectiveness of purchasing computer products for use with ODIN desktop seats:

    •   ODIN contracting officers had not adequately reviewed the prices of ODIN
        catalog products to determine whether the catalog prices were fair and
        reasonable. Instances of excessive pricing occurred because contracting officers
        had not adequately reviewed product features and prices. Without sufficient
        review, the Agency lacked assurance that it had purchased computer products in
        a cost-effective manner (Finding A).

    •   NASA may have opportunities to realize additional volume discounts when
        purchasing ODIN catalog products. Volume discounts have been infrequent for
        various reasons, including the absence of formal procedures for consolidating
        ODIN catalog purchases and the lack of provisions in some delivery orders for
        obtaining volume discount pricing. Increased use of volume discounts could
        enable NASA to secure more cost savings when purchasing computer peripherals
        (Finding B).

    • NASA has not established a uniform, Agencywide approach for purchasing
      computer products for ODIN seats. NASA permitted installations to use either of
      two procurement approaches – mandatory or optional use of ODIN catalogs –
      based on the assumption that the installations were best qualified to determine the
      extent of ODIN catalog use. As a result, not all installations have used an
      approach that provides the greatest overall benefit to the Agency (Finding C).



                                            1
Recommendations. We recommend that the NASA Chief Information Officer (CIO):

    •   Ensure that the ODIN Program Office and the ODIN contracting officers
        adequately review ODIN catalog prices for reasonableness and consistency with
        current market prices, fully document the results of such reviews, and recover an
        overpayment to the Headquarters ODIN contractor (Finding A).
    •   Direct the ODIN Program Office to establish procedures for the consolidation of
        ODIN purchasing requirements and negotiate volume discount provisions into
        future ODIN delivery orders (Finding B).
    •   Require that all installations use the ODIN catalogs as an optional rather than
        mandatory source for purchasing computer peripherals, accessories, and supplies
        (Finding C).



Findings and Recommendations

Finding A. ODIN Catalog Prices
ODIN catalog prices are sometimes excessive for desktop computing products. ODIN
contractors priced some catalog products unreasonably high, bundled the products with
unnecessary hardware and software, and offered the products in only the most expensive
support category. Instances of excessive pricing occurred because contracting officers
had not adequately reviewed product features and prices. Based on the ODIN catalog
products we reviewed, NASA may have paid an average of about 24 percent more than
necessary for computer peripherals, accessories, and supplies.


Indicators of Deficient Product Pricing

Although ODIN contracting officers said they had reviewed ODIN catalogs, they
provided little or no written documentation to support their reviews. For example, the
ODIN contracting officers provided no documentation indicating the dates of their
reviews, the review methodologies used, the sample items selected for review, or any
problems found. We identified the following four issues pertaining to improper product
prices and features that ODIN contracting officers should have raised during their
reviews:

   •    Unreasonable Product Pricing. The Headquarters ODIN contractor priced
        some catalog products unreasonably high because the contractor used excessive
        product acquisition costs in the pricing calculations. The ODIN contractor also
        incorrectly based its pricing calculations on a 15 percent rather than the specified
        13 percent profit rate. As a result of the incorrect profit rate, NASA overpaid
        about $9,000. Appendix C shows that the Headquarters’ ODIN catalog prices
        averaged about 24 percent more than the prices we calculated for the same
        products.

                                              2
•   Inconsistent Prices Among Installations. The highest and lowest catalog prices
    for selected ODIN products differed by an average of 27 percent among
    installations. The ODIN Program Manager told us that NASA did not perform
    periodic price comparisons among installations because price differences likely
    occurred due to differences in geographical locations, contractors’ pricing
    methods, and unique installation requirements. We found no documentation
    indicating that the price differences resulted from those factors. Further,
    installation contracting officers gave no specific reasons for the price differences
    among installations. Appendix D compares prices of selected products among
    installations at the Category 1 support level.

•   Lack of Product Support Choices. At several NASA installations, the ODIN
    catalogs offered only Category 1 prices – thereby denying users an opportunity to
    purchase computer products at significantly lower costs. Catalog products with
    Category 1 support include product installation and maintenance and, therefore,
    cost more than the same products with Category 3 support. The ODIN catalogs at
    the Goddard Space Flight Center (Goddard) and the Langley Research Center
    (Langley) offered only Category 1 support for computer supplies and accessories
    (such as printer cartridges, cables, and keyboards) despite their ease of
    installation, requirement for little or no maintenance, and low cost of replacement.
    Similarly, the Headquarters’ ODIN catalog offered only Category 1 support for
    all of its products except certain supplies and accessories. If Category 3 support
    had been available at Goddard, Langley, and Headquarters, NASA users at those
    installations may have found the reduced level of support sufficient for their
    needs.

    In response to our inquiries, the contracting officers at Goddard and Langley
    directed their respective ODIN contractors to offer computer supplies and
    accessories at the less expensive Category 3 support level. The impact of this
    change was readily apparent. For example, Langley’s ODIN catalog had listed a
    hard drive cable (Part No. 1669) at a Category 1 price of $52.14. Following the
    change in Category-level pricing, Langley’s ODIN catalog offered the same
    product at a Category 3 price of only $2.00 – or 96 percent less than the
    Category 1 price.

•   Product Bundling. NASA Headquarters’ users may be paying for unnecessary
    product features when buying catalog products that have been bundled with
    additional items. For example, the ODIN contractor at Headquarters bundled the
    Palm m505 hand-held electronic organizer with several communication and Web-
    browsing software programs for a total Category 1 price of $1,128.93. The
    contractor offered no opportunity to separate the Palm m505 organizer from the
    software programs. ODIN catalogs at other installations offered the basic Palm
    m505 (that is, without the additional software) for the Category 1 price of less
    than $500. The ODIN contracting officer at Headquarters told us he could not
    recall why the Headquarters ODIN contractor had offered NASA employees no

                                         3
       opportunity to purchase only the basic Palm m505 organizer. As a result of our
       inquiry, the contracting officer said he had instructed the ODIN contractor at
       Headquarters to offer an unbundled Palm m505 organizer in the ODIN catalog.

Until ODIN contracting officers perform more in-depth reviews of catalog prices, the
Agency lacks assurance that it is purchasing computer products in a cost-effective
manner. Specifically, ODIN contractors may charge unnecessarily high ODIN catalog
prices through excessive or inaccurate product pricing, and NASA users may purchase
more product capability (due to product bundling and “Category 1 support only”) than is
required.

Recommendation for Corrective Action

1. The NASA CIO should require the ODIN Program Office and the ODIN contracting
   officers to adequately review ODIN catalog prices for reasonableness and consistency
   with current market prices, fully document the results of such reviews, and recover an
   overpayment to the Headquarters ODIN contractor.

Management’s Response and Our Evaluation of the Response

NASA concurred with the recommendation. The ODIN Program Office will establish
procedures and responsibilities for adequately reviewing ODIN catalog prices for
reasonableness and consistency with current market prices and for documenting the
results on an ongoing basis at all installations. Additionally, management stated that it
has recovered the overpayment from the ODIN contractor. The complete text of
management’s response is in Appendix F.

Management’s completed and planned actions are responsive to the recommendation.
The recommendation is resolved but will remain undispositioned and open until the
corrective action is completed. Details related to disposition and closure of the
recommendation are in Appendix A.


Finding B. Opportunities for Volume Discounts
NASA may have opportunities to realize additional volume discounts when purchasing
ODIN catalog products. Volume discounts have been infrequent for various reasons,
including the absence of formal procedures for consolidating ODIN catalog purchases
and the lack of provisions in some delivery orders for obtaining volume discount pricing.
An increased use of volume discounts could enable NASA to secure more cost savings
when purchasing computer peripherals, accessories, and supplies.




                                             4
Possible Approaches to Achieving Volume Discounts

NASA may increase cost savings by negotiating unit price discounts from ODIN
contractors when purchasing multiple units of ODIN catalog products. NASA can also
negotiate a percentage discount based on the total dollar amount of ODIN catalog
purchases made over a specified period.

NASA has realized some cost savings when purchasing ODIN catalog products in
volume. Specifically, Goddard saved more than $200,000 by purchasing 5,000 units of
an anti-virus software program. Lyndon B. Johnson Space Center (Johnson) saved about
$31,000 by purchasing 168 copies of the Microsoft Project 98 software program.

The Agency cannot make volume purchases practical in all instances. For example, users
do not always purchase the same ODIN catalog products at the same time. Nonetheless,
the Agency can establish procedures for consolidating purchase requirements and
negotiate provisions for volume discounts in future delivery orders. In this regard,
Dryden Flight Research Center (Dryden), Glenn Research Center at Lewis Field (Glenn),
and Langley included provisions in their delivery orders that allow the installations to
earn volume discounts based on their total purchasing activity over a 3-month period.
Without such provisions, NASA must pay the single-unit prices shown in the ODIN
catalogs, regardless of the quantities purchased.

Recommendations for Corrective Action

The NASA CIO should direct the ODIN Program Office to:

2. Establish procedures to encourage the consolidation of ODIN purchasing
   requirements both within and among NASA installations.

3. Advise all installations to include volume discount provisions in future delivery
   orders.

Management’s Response and Our Evaluation of the Response

NASA concurred with the recommendations. Regarding Recommendation 2, the ODIN
Program Office will establish procedures and guidance for consolidating purchasing
requirements within and among NASA installations to the maximum extent possible.
Regarding Recommendation 3, the ODIN Program Office will issue an "ODIN Program
Notice" to the ODIN Program Board to formalize the procedures and guidance for
consolidating purchasing requirements (see Appendix F).

Management’s planned actions are responsive to the recommendations. The
recommendations are resolved but will remain undispositioned and open until the
corrective actions are completed (see Appendix A).




                                            5
Finding C. Mandatory and Optional Use of ODIN Catalogs

Some NASA installations required their employees to purchase ODIN-related computer
peripherals, accessories, and supplies only through ODIN catalogs even though the same
products were available from non-ODIN sources at substantially lower prices. The
installations cited various reasons for purchasing products in this manner. Based on the
ODIN catalog products we reviewed, NASA employees at those installations could have
saved an average of about 29 percent if they had purchased the products from lower-
priced, non-ODIN sources.


Current Practices

Good management practices would have NASA select the most cost-effective
procurement approach and require all installations to consistently follow that approach.
The ODIN Program Office instead allowed NASA installations to use either of two
procurement approaches (mandatory or optional use of ODIN catalogs) based on the
assumption that installations are best qualified to determine the extent of ODIN catalog
use. Specifically, Dryden, Headquarters, John F. Kennedy Space Center (Kennedy), and
George C. Marshall Space Flight Center (Marshall), required their employees to purchase
all computer products only through ODIN catalogs. Langley required its personnel to
purchase all internal components (that is, components to be installed within the central
processing unit of the ODIN seat) through the ODIN catalog. Ames Research Center
(Ames), Glenn, Goddard, Johnson, and John C. Stennis Space Center (Stennis) allowed
their employees to purchase computer products from the ODIN catalogs and from other
sources.

Installations cited the following benefits of purchasing computer products through ODIN
catalogs only.
    • Centralized ODIN-contractor management of computer assets.
    • Reduction in NASA procurement, asset management, and logistics workloads.
    • Increased NASA visibility of desktop computing costs.
    • Uniform ODIN contractor support of seats as well as computer “add-ons.”

Installations cited the following benefits of purchasing computer products from ODIN
catalogs and from other sources.

   •   Pressure on the ODIN contractors to price the ODIN catalog products
       competitively.
   •   More choices and flexibility for NASA users.

Although both procurement approaches offer benefits to the Agency, the optional
approach could allow significant cost savings because users may purchase from sources
that offer prices lower than those found in the ODIN catalogs. To illustrate, Appendix E
shows that, for selected products, NASA can achieve average cost savings of about 29


                                            6
percent by purchasing computer products from non-ODIN sources. Until NASA requires
all installations to use the optional approach, the Agency has limited its potential for
increased cost savings.

Recommendation for Corrective Action

4. The NASA CIO should require that all installations use the ODIN catalogs as an
   optional rather than mandatory source for purchasing computer peripheral equipment,
   accessories, and supplies.


Management’s Response and Our Evaluation of the Response

NASA concurred with the recommendation. The ODIN Program Office will issue
guidance for installations to use ODIN catalogs as one mechanism for achieving the best
value for the Government, but not as a mandatory source for purchasing computer
peripheral equipment, accessories, and supplies. The ODIN Program Office will issue an
"ODIN Program Notice" to this effect to the ODIN Program Board (see Appendix F).

Management’s planned actions are responsive to the recommendation. The
recommendation is resolved but will remain undispositioned and open until the corrective
actions are completed (see Appendix A).




                                           7
List of Appendixes

Appendix A – Status of Recommendations

Appendix B – Objectives, Background, Scope, and Methodology

Appendix C – Comparison of Headquarters’ ODIN Catalog Prices

Appendix D – Price Comparison Among Installations at Category 1 Support
             Level

Appendix E – Comparison of ODIN Catalog Prices to Non-ODIN Prices
             for Selected Products

Appendix F – Management’s Response

Appendix G – Report Distribution




Acronyms Used in the Report

CIO         Chief Information Officer
ODIN        Outsourcing Desktop Initiative for NASA




                                       8
                       Appendix A. Status of Recommendations

                                                                                                    Monetary
    Recommendation No.            Resolved         Unresolved         Open/ECD1          Closed     Benefits
           1                         X                                 7/31/03                      $9,0152
           2                         X                                 6/30/03
           3                         X                                 6/30/03
           4                         X                                 6/30/03


1
 ECD -- Estimated completion date. Regarding Recommendation 4, management’s response did not
provide an estimated completion date. We subsequently confirmed with management the estimated
completion date of June 30, 2003.
2
 Questioned costs resulted from the Headquarters ODIN contractor’s calculation of ODIN catalog prices
for which it incorrectly used a 15-percent profit rate rather than 13-percent profit rate. The affected period
was May 24, 2002, through October 31, 2002.




                                                      9
       Appendix B. Objectives, Background, Scope, and Methodology

Objectives

Our overall objective was to identify opportunities for cost savings within ODIN.
Specifically, we determined whether NASA can achieve cost savings when purchasing
computer products for use with ODIN seats.

Background

NASA chartered ODIN in December 1996 to develop an outsourcing arrangement that
provides support for the majority of NASA’s desktop and intra-installation
communication systems. In 1998, NASA awarded a master ODIN contract (contract
NAS5-98144) to seven companies. The contract’s total estimated value is $1.3 billion
over 9 years, and its period of performance is June 22, 1998, through June 21, 2007. The
master contract allows installations to award delivery orders for desktop, server, and
communication services to any of the seven companies. Delivery orders cannot exceed 3
years in duration and may be renewed on a sole-source basis.

ODIN contractors provide services to NASA employees on a “per seat” basis. Seats
include the following components.

   •    Hardware and software, installation, and maintenance
   •    System administration, relocation, and network access
   •    Customer support and training

As of October 2002, NASA Headquarters and nine installations had awarded delivery
orders totaling $377 million for desktop, server, and communication services.

The master ODIN contract requires the contractors to offer optional computer products
(that is, peripheral equipment, accessories, and supplies) to augment the desktop seats.
NASA users may order the optional products through an on-line catalog maintained by
the ODIN contractor at each installation. In 2001, the Agency purchased a total of $14.2
million in computer products through the ODIN catalogs.

ODIN contractors are not required to disclose their methodologies for pricing ODIN
catalog products. Therefore, NASA contracting officers perform price analyses to
determine the reasonableness of the ODIN catalog prices. Their analyses include:

   •    checking catalog products for unusually high prices,
   •    relying on NASA users to raise concerns about potentially overpriced catalog
        products,
   •    discussing pricing issues with the ODIN contractors and NASA users, and




                                           10
                                                                              Appendix B

   •   relying on ODIN contractor-prepared price comparisons for a few products.

The catalog price represents a one-time charge that allows NASA personnel to use the
product typically for 36 months. At no additional charge, NASA may transfer the
product to another new or existing ODIN seat during the 36-month period. The ODIN
contractor owns the product and is responsible for asset tracking and inventory
management. At the end of the 36-month period, the contractor may sell or otherwise
dispose of the product.

ODIN catalog products can be priced in one or more of the following three categories.

       Category 1. The catalog price reflects ODIN contractor costs to acquire, deliver,
       install, and maintain a product for a 36-month period. The ODIN contractor
       guarantees that the product will function with the desktop seat.

       Category 2. The catalog price includes the ODIN contractor’s costs to acquire,
       deliver, and install the product. Maintenance is limited to that which is covered in
       the manufacturer’s standard warranty. The ODIN contractor guarantees that the
       product will function with the desktop seat.

       Category 3. The catalog price includes the ODIN contractor’s costs to acquire
       and deliver the product. The user is responsible for product installation, and
       maintenance is limited to that which is covered in the manufacturer’s standard
       warranty. The ODIN contractor does not guarantee that the product will function
       with the desktop seat.


Agency Policies and Procedures

NASA’s Strategic Management Handbook (February 2000), Paragraph 2.3.2.4, requires
NASA program managers to use the most expeditious and cost-effective approach for
managing NASA programs. A cost-effective approach for managing the ODIN program
would include (1) reviewing ODIN catalogs to ensure that the product prices are
reasonable and product features are appropriate and (2) seeking volume discounts when
purchasing ODIN catalog products.




                                            11
Appendix B

Scope and Methodology

We performed the following work:

   •   Interviewed NASA ODIN Program personnel to determine their methodologies
       for reviewing ODIN catalog prices and the extent of documentation supporting
       those reviews.
   •   Compared Headquarters ODIN catalog prices with our calculated prices to
       identify significant differences in those prices.
   •   Compared prices among installations for selected ODIN catalog products to
       identify significant differences in those prices.
   •   Compared ODIN catalog prices with prices charged by non-ODIN sources to
       identify significant differences in those prices.
   •   Interviewed the ODIN Program Manager to discuss the feasibility of purchasing
       ODIN catalog products in volume.
   •   Interviewed ODIN Program Office personnel to determine the installations’
       rationale for the mandatory and optional use of ODIN catalogs.
   •   Researched Federal Acquisition Regulation Subpart 15.4, Contract Pricing, to
       determine the extent to which contracting officers should review contract prices
       and document such reviews.

Management Controls Reviewed

We reviewed management controls regarding NASA’s review for reasonableness of
ODIN catalog prices. We considered the controls to be inadequate because NASA did
not conduct thorough price reviews and document the results of the reviews. We also
reviewed management controls relating to the volume purchasing of ODIN catalog
products. We determined that NASA can increase savings through volume purchasing if
the ODIN Program Office establishes procedures to encourage such purchases.

Audit Field Work

We performed the field work from November 2001 through March 2003. We conducted
the audit in accordance with generally acceptable government auditing standards.




                                           12
   Appendix C. Comparison of Headquarters’ ODIN Catalog Prices


[Withheld per FOIA exemption 4, 5 U.S.C. §552(b)(4).]




                                         13
           Appendix D. Price Comparison Among Installations
                     at Category 1 Support Level


[Withheld per FOIA exemption 4, 5 U.S.C. §552(b)(4).]




                                         14
Appendix E. Comparison of ODIN Catalog Prices to Non-ODIN Prices
                     for Selected Products


[Withheld per FOIA exemption 4, 5 U.S.C. §552(b)(4).]




                                         15
Appendix F. Management’s Response




               16
     Appendix F




17
Appendix F




             18
                      Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AD/Deputy Administrator
AO/Chief Information Officer
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Biological and Physical Research
Y/Associate Administrator for Earth Science

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Acting Director, John C. Stennis Space Center




                                         19
                                                                        Appendix G

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         20
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Opportunities for Cost Savings in Purchasing Peripheral and Assessory
             Equipment and Supplies for Desktop Computing Services

Report Number:                                             Report Date:


Circle the appropriate rating for the following statements.
                                                       Strongly                                Strongly
                                                       Agree      Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically        5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.               5       4       3          2          1       N/A
3.   We effectively communicated the audit                  5       4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to         5       4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                      21
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #     Media
   #   NASA Employee                       #     Public Interest
   #   Private Citizen                     #     Other:
   #   Government:            Federal:              State:         Local:


May we contact you about your comments?

Yes: ______                                    No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.




Additional Copies

                                          22
To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Auditing

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001



NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to this Report

David L. Gandrud, Office of Audits (OA), Associate Director, Institutional and
Infrastructure Management

Tony A. Lawson, OA Project Manager, Institutional and Infrastructure Management

Roger W. Flann, OA Project Manager, Institutional and Infrastructure Management

Howard Kwok, Auditor

Rhodora Posey, Auditor

Barbara Smith, Program Assistant

Patricia Reid, Program Assistant




                                            23
